CERTIFICATE OF COMPLIANCE
No. _____
SHERIFF DALE MALONE, ET AL.,
Petitioners,
v.
RONALD GRAVES,
Respondents.

As required by Supreme Court Rule 33.1(h), I certify that the Petition for Writ of
Certiorari contains 7860 words, excluding the parts of the Petition that are exempted
by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on October 19, 2020.

MARCELYN A. STEPANSKI
Counsel of Record
ROSATI, SCHULTZ, JOPICH &
AMTSBUECHLER
27555 Executive Drive
Suite 250
Farmington Hills, MI 48331
(248) 489-4100
mstepanski@rsjalaw.com
Counsel for Petitioners

